<html>
<title> - REDUCING THE ADMINISTRATIVE WORKLOAD</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                  REDUCING THE ADMINISTRATIVE WORKLOAD
                     FOR FEDERALLY FUNDED RESEARCH

=======================================================================



                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2014

                               __________

                           Serial No. 113-79

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov
       
                                     ______

                         U.S. GOVERNMENT PRINTING OFFICE 

89-408 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                       Subcommittee on Oversight

                   HON. PAUL C. BROUN, Georgia, Chair
F. JAMES SENSENBRENNER, JR.,         DAN MAFFEI, New York
    Wisconsin                        ERIC SWALWELL, California
BILL POSEY, Florida                  SCOTT PETERS, California
KEVIN CRAMER, North Dakota           EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
THOMAS MASSIE, Kentucky              DEREK KILMER, Washington
JIM BRIDENSTINE, Oklahoma            ELIZABETH ESTY, Connecticut
CHRIS COLLINS, New York              ROBIN KELLY, Illinois
BILL JOHNSON, Ohio                   EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas

                            C O N T E N T S

                             June 12, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Paul C. Broun, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     7
    Written Statement............................................     8

Statement by Representative Dan Maffei, Ranking Minority Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    12

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Technology, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    14

Written statement by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    15

                               Witnesses:

Dr. Arthur Bienenstock, Chairman, Task Force on Administrative 
  Burden, National Science Board
    Oral Statement...............................................    16
    Written Statement............................................    18

Dr. Susan Wyatt Sedwick, Chair, Federal Demonstration 
  Partnership; President, FDP Foundation
    Oral Statement...............................................    29
    Written Statement............................................    31

Dr. Gina Lee-Glauser, Vice President for Research, Syracuse 
  University, Office of Research
    Oral Statement...............................................    49
    Written Statement............................................    51

The Honorable Allison Lerner, Inspector General, National Science 
  Foundation, Office of Inspector General
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    66

             Appendix I: Answers to Post-Hearing Questions

Dr. Arthur Bienenstock, Chairman, Task Force on Administrative 
  Burden, National Science Board.................................    84

Dr. Susan Wyatt Sedwick, Chair, Federal Demonstration 
  Partnership; President, FDP Foundation.........................    97

Dr. Gina Lee-Glauser, Vice President for Research, Syracuse 
  University, Office of Research.................................   110

The Honorable Allison Lerner, Inspector General, National Science 
  Foundation, Office of Inspector General........................   119

 
                  REDUCING THE ADMINISTRATIVE WORKLOAD

                     FOR FEDERALLY FUNDED RESEARCH

                              ----------                              


                        THURSDAY, JUNE 12, 2014

                  House of Representatives,
                       Subcommittees on Oversight &
                                    Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 9:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Paul Broun 
[Chairman of the Subcommittee on Oversight] presiding.

[GRAPHIC] [TIFF OMITTED] 

    Chairman Broun. Good morning, everyone. This is the joint 
hearing of the Subcommittee on Oversight and the Subcommittee 
on Research and Technology, and we will call this meeting to 
order.
    Welcome to today's joint hearing titled ``Reducing the 
Administrative Workload for Federally Funded Research.'' In 
front of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so that all Members understand how the 
question-and-answer period will be handled. We will recognize 
those Members present at the gavel in order of seniority on the 
full Committee and those coming in after the gavel will be 
recognized in order of their arrival. I now recognize myself 
for five minutes for an opening statement.
    Let me begin by extending a warm welcome to our witnesses, 
and thank you all for appearing today bright and early. In 
fact, Dr. Lee-Glauser, I understand you drove all the way from 
Syracuse to come today, and we really appreciate your taking 
all that effort to do so. Welcome to all of you.
    Earlier this year, the National Science Board issued a 
report that examines concerns raised by educational 
institutions on the paperwork required of each of them when 
applying for Federal funds for research. The report references 
work done by an association, also represented here today, which 
identified through a couple of surveys that on average, 
researchers spend 42 percent of their application time on 
meeting administrative requirements. That is a massive drain on 
researchers' time and resources, and means they are spending 
that much less time on conducting active research, which is 
their primary objective.
    Forty-two percent sounds to me to be an extraordinarily 
high number. I have often spoken against the bureaucracies 
associated with a large federal government, and it appears that 
our educational institutions may indeed be victims of 
bureaucratic red tape. As such, it seems fair to explore 
solutions such as harmonizing and streamlining federal 
regulations and reporting requirements. It also makes sense to 
eliminate ineffective federal regulations while also requiring 
universities to increase their efficiency and effectiveness.
    But, as with most issues that appear before this Committee, 
there are many sides to consider, and another one of our 
witnesses today, the Inspector General for the National Science 
Foundation, will provide us with her perspective as an auditor, 
which is quite different. While everyone generally agrees that 
efforts to reduce these administrative burdens should not be at 
the expense of transparency and accountability, it is the 
auditor who actually reviews grants for waste, fraud, abuse and 
mismanagement.
    Consequently, I am interested in learning about not only 
how the federal government can and needs to do a better job in 
cutting down red tape to bring that 42 percent number down, but 
also about the tools, or in this case, the paperwork the NSF 
Inspector General needs to access in order to do her job 
effectively.
    As a physician and a man of science, I can appreciate the 
value to our nation and to our students of research 
universities' work to sustain the science, technology, 
engineering and mathematics workforce. The United States relies 
greatly on the strength and success of our universities in 
order to remain a world leader in science and technology. But 
it shouldn't be a surprise to most of you that when it comes to 
spending taxpayer dollars, I have some well-known opinions on 
how much, or how little, the federal government should spend 
and where such funds should go.
    Don't get me wrong. Making sure our science agencies are 
funded at the appropriate authorization levels is important, 
but it is that definition of ``appropriate'' that is critical. 
If we really want to reduce the administrative burden on 
institutions, then all we have to do is reduce the size of the 
administration. No money, no problem. But this is a discussion 
for another day, of course.
    I look forward to today's hearing, which I anticipate will 
inform us on how to reduce the administrative workload for 
federally funded research without compromising the federal 
responsibility to ensure tax money is spent in the manner 
intended.
    [The prepared statement of Mr. Broun follows:]

  Prepared Statement of Subcommittee on Oversight Chairman Paul Broun

    Good morning. Let me begin by extending a warm welcome to our 
witnesses, and thank you all for appearing today bright and early.
    Earlier this year, the National Science Board issued a report that 
examines concerns raised by educational institutions on the paperwork 
required of them when applying for federal funds for research. The 
report references work done by an association, also represented here 
today, which identified through a couple of surveys that on average, 
researchers spend 42 percent of their application time on meeting 
administrative requirements. That is a massive drain on researchers' 
time and resources, and means they are spending that much less time on 
conducting active research, which is their primary objective.
    Forty-two percent sounds to me to be an extraordinarily high 
number. I have often spoken against the bureaucracies associated with a 
large federal government, and it appears that our educational 
institutions may indeed be victims of bureaucratic red tape. As such, 
it seems fair to explore solutions such as harmonizing and streamlining 
federal regulations and reporting requirements. It also makes sense to 
eliminate ineffective federal regulations while also requiring 
universities to increase their efficiency and effectiveness.
    But, as with most issues that appear before this Committee, there 
are many sides to consider, and another one of our witnesses today, the 
Inspector General for the National Science Foundation, will provide us 
with her perspective as an auditor, which is quite different. While 
everyone generally agrees that efforts to reduce these administrative 
burdens should not be at the expense of transparency and 
accountability, it is the auditor who actually reviews grants for 
waste, fraud, abuse and mismanagement. Consequently, I am interested in 
learning about not only how the federal government can--and needs--to 
do a better job in cutting down red tape to bring that 42 percent 
number down, but also about the tools, or in this case, the paperwork 
the NSF Inspector General needs to access in order to do her job 
effectively.
    As a physician and man of science, I can appreciate the value to 
our nation and to our students of research universities' work to 
sustain the science, technology, engineering and mathematics workforce. 
The United States relies greatly on the strength and success of our 
universities in order to remain a world leader in science and 
technology. But it shouldn't be a surprise to most of you that when it 
comes to spending taxpayer dollars, I have some well-known opinions on 
how much--or how little--the federal government should spend, and where 
such funds should go. Don't get me wrong, making sure our science 
agencies are funded at the appropriate authorization levels is 
important, but it is that definition of appropriate that is critical. 
If we really want to reduce the administrative burden on institutions, 
then all we have to do is reduce the size of the administration--no 
money, no problem. But that is a discussion for another day. I look 
forward to today's hearing, which I anticipate will inform us on how to 
reduce the administrative workload for federally funded research 
without compromising the federal responsibility to ensure taxpayer 
money is spent in the manner intended.

    Chairman Broun. Thank you, and now I recognize my friend 
and Ranking Member, the gentleman from New York, Mr. Maffei, 
for an opening statement. Mr. Maffei, you are recognized for 
five minutes.
    Mr. Maffei. I thank my friend and Chairman for not only for 
recognizing me but for also holding this hearing. I think this 
is an extremely important hearing. I am actually particularly 
pleased that one of my constituents, Dr. Gina Lee-Glauser, is 
here, and as you mentioned, had to make a great personal 
sacrifice to come down. Central New York isn't as far as 
Georgia but it is still quite a drive. Fortunately, we are not 
in the winter weather where it would have been almost 
impossible. But I know that the Committee will value her advice 
and insights about all of us thinking about these issues.
    Regulations can certainly add to the burdens and hurdles of 
researchers, but we have to weigh the benefits of those 
regulations against the cost. I want to thank Dr. Bienenstock 
and Dr. Sedwick for bringing their thoughtful reports to our 
attention. Those studies provide plenty of examples of places 
where we can pare back on the bureaucratic burdens to free up 
our professors to do the work we really want them to do.
    I am also very pleased to have Mrs. Lerner here to tell us 
what information really is necessary to collect to avoid fraud 
and wasteful grants. That is so important.
    With scientists spending 40 percent of their time perhaps 
on this paperwork, and I have even seen larger amounts of time, 
it is extremely important to make sure that we reduce anything 
unnecessary to allow them to spend more of their time doing 
science, but I would be, I think, remiss if I didn't bring up 
that so much time and energy of a researcher simply comes from 
applying for grants, the same grants, the same research project 
over and over and over again, and with 80 percent of 
applications for grants going unfunded, even very, very 
promising proposals are not funded simply because there are 
insufficient funds. The researchers spend an enormous amount of 
time chasing money from an increasingly smaller pot.
    Unfortunately, the FIRST Act that we marked up a few weeks 
ago in the full Committee failed to provide an authorization 
that even matches the already constrained level offered by the 
appropriators. Now, I am not trying to be partisan on this. I 
actually believe the President also has not done enough in 
terms of funding science and in terms of real buying power, the 
cost of science. We have seen that the actual funds have gone 
down for research from the federal government, and by failing 
to provide more robust funding, I fear that we consign many 
researchers to hours and hours of unfunded effort that will 
four out of five times only result only in failure. That also 
constitutes a huge hidden cost, and we need science--we need 
scientists in this country to do the science, not paperwork 
burdens, not applying again and again and again for the same 
grant because there is so little funding.
    Now, I realize there are a lot of burdens obviously on 
federal funds, but if we don't do it, Mr. Chairman, I fear that 
first of all, competitors such as China and others will 
overtake us very quickly in terms of research on science but 
also we are putting our society at a far higher cost. This is a 
capital investment when we invest in scientific research. It is 
not the same thing as throwing money out the window. In fact, 
societies for thousands and thousands of years, even if they 
had zero social programs, still invested in scientific 
research, and those that didn't did it at their peril.
    So I am very, very grateful to you for having this hearing. 
I think it is very important to reduce the paperwork burden but 
I do want to make sure that we put it in the proper context, 
that it isn't the only thing that is going to solve the problem 
of scientists spending so much time doing things other than 
science, and I yield back, Mr. Chairman.
    [The prepared statement of Mr. Maffei follows:]

            Prepared Statement of Subcommittee on Oversight
                   Ranking Minority Member Dan Maffei

    Mr. Chairman, I am happy we are holding a hearing on this important 
subject. While I am grateful to all the witnesses who are here today, I 
am particularly pleased that the Vice President for Research at 
Syracuse University, Dr. Gina Lee-Glauser, is able to join us. I know 
her well and value her advice and insight to inform my thinking about 
policy related to our Universities.
    There are many who think that academics have it easy, but I can 
tell you that the academics I have known--many of them at Syracuse 
University--are among the hardest working people you will ever meet. 
Many professors have to juggle their teaching, their research and their 
University and community service. So when I hear from many researchers 
about the additional burdens of the ``time and effort'' reporting 
system, I am not the least bit surprised.
    My hat is off to all the teachers and researchers who educate and 
innovate. It is hard work, and sometimes it does not receive the 
recognition it deserves, but it is essential to building the kind of 
country and world we want our children to inherit.
    Regulations can certainly add to the burdens and hurdles of our 
researchers, but we have to weigh the benefits of those regulations 
against the costs. I want to thank Dr. Beinenstock and Dr. Sedwick for 
bringing their very thoughtful reports to our attention. Those studies 
provide plenty of examples of places where we can pare back on 
bureaucratic burdens to free up our professors to do the work we really 
want them doing.
    In this, I think there is no disagreement across the aisle. We both 
want to reduce unnecessary regulations. That said, I find this 
hearing's timing to be unfortunate. We are receiving testimony on ways 
to reduce the burden on researchers just two weeks after the Committee 
finished marking up the National Science Foundation (NSF) authorization 
in the FIRST Act. That would have been a perfect opportunity to craft 
legislation that would have given statutory guidance to NSF about 
tackling reductions in regulatory burdens. Instead of providing 
meaningful guidance, the FIRST Act just tells Office of Science and 
Technology Policy (OSTP) to start thinking about doing something.
    I also have to say that the FIRST Act itself creates new regulatory 
burdens, either directly or indirectly, on researchers. It also 
increases administrative overhead at NSF, which will drain funds away 
from research to support the new array of compliance requirements 
invented by the Majority.
    Lastly, there is another area of administrative burden that the 
Committee contributes to. Reading through the testimony, it is clear 
that one of the largest time and energy sinks on researcher's time 
comes in the form of simply applying for grants. With 80 percent of the 
applications going unfunded, even very, very promising proposals are 
not funded simply because there are insufficient funds. Researchers 
spend an enormous amount of time chasing money from an increasingly 
smaller pot. The FIRST Act failed to provide an authorization that even 
matches the already-constrained level offered by the appropriators. By 
failing to provide more robust funding, the Majority consigns many 
researchers to hours of unfunded effort that will, four out of 
fivetimes result only in failure. That constitutes its own hidden cost 
on researchers.
    So, I approach this hearing with a sense of gratitude that we can 
get so much good information on the record, but also aware of the irony 
in the topic and timing of this hearing.
    Yield back, Mr. Chairman.

    Chairman Broun. Thank you, Mr. Maffei. Surely you are not 
suggesting we get rid of social programs as a Democrat.
    Mr. Maffei. Surely I am not. I am just drawing a 
comparison, though I do think we could do those more 
efficiently as well.
    Chairman Broun. Amen, brother.
    I will now recognize the Chairman of the Subcommittee on 
Research and Technology, the gentleman from Indiana, a medical 
colleague, Dr. Bucshon, for his opening statement. Dr. Bucshon, 
you are recognized for five minutes.
    Mr. Bucshon. Thank you, Chairman Broun, and thank you to 
the witnesses for appearing here today.
    Our hearing today on reducing the administrative workload 
for federally funded research, brings forward an important 
subject for all of us: reducing burdensome red tape caused by 
an overly entangled bureaucratic web on the research community.
    Last April, I did a university tour in my State of Indiana, 
which is home to many premier research universities. At every 
school I visited, the administrative burden on researchers was 
of utmost concern.
    In 2012, the National Research Council produced a report, 
in response to a bipartisan bicameral request, highlighting ten 
recommendations for the future of U.S. research universities. 
One of the recommendations from that report was to reduce or 
eliminate regulations that increase administrative costs, 
impede research productivity, and deflect creative energy 
without substantially improving the research environment.
    In early 2013, I joined the former Chair of the Research 
Subcommittee, my colleague Mo Brooks from Alabama, on a request 
to the GAO to identify Federal requirements that create burden 
for research universities. To avoid duplication, GAO waited to 
move forward on our request due to ongoing work of the Office 
of Management and Budget, the National Science Board and the 
Federal Demonstration Partnership. I believe now that these 
projects have wrapped up we can expect GAO to begin to identify 
and address concerns regarding both the burden and potential 
value of regulatory requirements.
    Additionally, a bill I authored, H.R. 4186, the Frontiers 
in Innovation, Research, Science and Technology Act, was 
reported favorably from the full Committee on May 28th and 
included a provision requiring the Director of the Office of 
Science and Technology Policy to establish a working group 
responsible for reviewing federal regulations surrounding 
research and research universities and making recommendations 
on ways to minimize the regulatory burden on universities.
    I want to be sure we address the concern that 42 percent of 
a researcher's time, according to the FDP, is spent on 
administrative tasks which may take away from the conduct of 
science. But we must also ensure that we maintain processes to 
safeguard accountability, transparency and responsibility in 
handling taxpayer resources.
    I am confident that we are taking thoughtful and beneficial 
steps toward addressing the issue of the regulatory burden. I 
look forward to hearing from our witnesses today on their 
experiences, concerns and suggestions to alleviate this problem 
while preserving accountability.
    I yield back.
    [The prepared statement of Mr. Bucshon follows:]

     Prepared Statement of Subcommittee on Research and Technology
                         Chairman Larry Bucshon

    Thank you Chairman Broun. Our hearing today on Reducing the 
Administrative Workload for Federally Funded Research brings forward an 
important subject for all of us; reducing burdensome red tape caused by 
an overly entangled bureaucratic web on the research community. Last 
April, I did a university tour in my state of Indiana, which is home to 
many premier research universities. At every school I visited, the 
administrative burden on researchers was of the utmost concern.
    In 2012, the National Research Council produced a report, in 
response to a bipartisan bicameral request, highlighting ten 
recommendations for the future of U.S. research universities. One of 
the recommendations from that report was to ``reduce or eliminate 
regulations that increase administrative costs, impede research 
productivity, and deflect creative energy without substantially 
improving the research environment.'' Early in 2013, I joined the 
former Chair of the Research Subcommittee, my colleague Mo Brooks from 
Alabama, on a request to the Government Accountability Office (GAO) to 
identify federal requirements that create burden for research 
universities.
    To avoid duplication, GAO waited to move forward on our request due 
to ongoing work of the Office of Management and Budget (OMB), the 
National Science Board (NSB) and the Federal Demonstration Partnership 
(FDP). I believe now that these projects have wrapped up we can expect 
GAO to begin to identify and address concerns regarding both the burden 
and potential value of regulatory requirements. Additionally, a bill I 
authored, H.R. 4186, the Frontiers in Innovation, Research, Science and 
Technology Act, was reported favorably from the Full Committee on May 
28 and included a provision requiring the Director of the Office of 
Science and Technology Policy (OSTP) to establish a working group 
responsible for reviewing federal regulations surrounding research and 
research universities and making recommendations on ways to minimize 
the regulatory burden on universities.
    I want to be sure we address the concern that 42 percent of a 
researcher's time (according to the Federal Demonstration Partnership 
(FDP)) is spent on administrative tasks which may take away from the 
conduct of science. But we must also ensure that we maintain processes 
to safeguard accountability, transparency and responsibility in 
handling taxpayer resources.I am confident that we are taking 
thoughtful and beneficial steps toward addressing the issue of 
regulatory burden. I look forward to hearing from our witnesses today 
on their experiences, concerns and suggestions to alleviate this 
problem while preserving accountability.

    Chairman Broun. Thank you, Dr. Bucshon. I now recognize the 
Ranking Member of the Research and Technology Committee, my 
friend, Mr. Lipinski. You are recognized for five minutes.
    Mr. Lipinski. Thank you, Chairman Broun, and thank you, 
Chairman Broun and Chairman Bucshon, for holding this hearing 
on reducing the administrative workload for researchers. My 
prior life as a university professor, researcher, I certainly 
do have an appreciation for this.
    There have been numerous reports, including some we will 
hear about this morning, that have found that researchers face 
significant administrative burdens, as all of my colleagues 
have talked about. That is concerning because time spent on 
administrative tasks from applying for grants, to submitting 
progress reports, to complying with rules for human participant 
requirements is time not spent on conducting research. This 
could mean a delay in research progress and lengthening the 
time for the next scientific breakthrough.
    I want to stress that many administrative requirements are 
very important. We must have a system that ensures that federal 
resources are not being wasted and that human participants are 
being protected. That being said, we need to find the right 
balance that meets those goals and allows researchers to focus 
on what they do best: advancing science. I am concerned that we 
might not be striking the appropriate balance. If researchers 
are spending over 40 percent of their time on administrative 
tasks and not research, that is wasteful.
    At a hearing in 2012, the Research Subcommittee heard 
testimony from university witnesses expressing concern about 
the growing toll of administrative burdens. After that hearing, 
I sent a letter to OMB as the agency sought to reform federal 
grants policies. The letter urged OMB to make changes to reduce 
administrative burdens in some of the same areas addressed in 
the Board's report. While the OMB has not adopted these 
recommendations in full, I do feel that substantive progress 
has been made and I hope that we can continue to address these 
matters moving forward. I look forward to working with research 
groups, the university community, science agencies, and other 
interested parties to identify and act on additional 
opportunities for reform.
    Although this Committee cannot solve all the problems 
associated with administrative burdens, we do have an important 
role to play in working on and highlighting these issues. Both 
the America COMPETES Reauthorization Act of 2014 and the FIRST 
Act, as mentioned by Chairman Bucshon, include language that 
would establish a working group under the National Science and 
Technology Council to make recommendations on how to harmonize, 
streamline, and eliminate duplicative federal regulations and 
reporting requirements. I am interested to hear the witnesses' 
thoughts on these legislative proposals.
    I am also interested in hearing from the witnesses about 
how other legislation such as the DATA Act, which has just been 
enacted, and the GRANT Act, which has been proposed, would 
affect administrative burdens for researchers.
    Finally, I am interested in hearing about the progress that 
is already being made to streamline and harmonize 
administrative tasks. For example, I know that federal agencies 
have been working on harmonizing the grant proposal process and 
progress reporting requirements. Additionally, I understand 
that agencies have started exploring ways for researchers to 
submit only the information needed for the initial peer review 
phase and then requiring administrative information from the 
researchers only if the proposal is likely to be awarded. I 
look forward to hearing from the witnesses about these efforts 
and other proposals that could help reduce the administrative 
burden for researchers.
    In closing, federal agency and institutional requirements 
have been put in place to protect human participants and animal 
subjects in research, ensure integrity in the research 
enterprise, and eliminate waste, fraud and abuse. There is no 
question that we need to have these requirements in place but 
there is room to make changes to the implementation of these 
requirements. We must strike the right balance that both 
protects our research enterprise and enables scientists to 
spend more time on their important research.
    I look forward to the witness testimony today and I thank 
you for being here, and I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]

      Prepared Statement of Subcommittee on Research & Technology
                  Ranking Minority Member Dan Lipinski

    Thank you Chairman Broun and Chairman Bucshon for holding this 
hearing on reducing the administrative workload for researchers.
    There have been numerous reports, including some we will hear about 
this morning, that have found that researchers face significant 
administrative burdens. That is concerning because time spent on 
administrative tasks--from applying for grants, to submitting progress 
reports, to complying with rules for human participant requirements--is 
time not spent on conducting research. This could mean a delay in 
research progress and lengthening the time for the next scientific 
breakthrough.
    I want to stress that many administrative requirements are very 
important. We must have a system that ensures that human participants 
are being protected and that federal resources are being used wisely. 
That being said, we need to find the right balance that meets those 
goals and allows researchers to focus on what they do best--advancing 
science. I am concerned that we might not be striking the appropriate 
balance. If researchers are spending over 40 percent of their time on 
administrative tasks and not research, that is not productive.
    At a hearing in 2012, the Research subcommittee heard testimony 
from university witnesses expressing concern about the growing toll of 
administrative burdens. As a result, in May of last year I made several 
recommendations along the lines of the issues raised in the Board's 
report in a letter to OMB as the agency sought to reform federal grants 
policies. While the OMB has not adopted these recommendations in full, 
I do feel that substantive progress has been made and I hope that we 
can continue to address these matters moving forward. I look forward to 
working with research groups, the university community, science 
agencies, and other interested parties to identify and act on 
additional opportunities for reform.
    Although this Committee cannot solve all the problems associated 
with administrative burdens, we do have an important role to play in 
working on and highlighting these issues. Both the America Competes 
Reauthorization Act of 2014 and the FIRST Act include language that 
would establish a working group under the National Science and 
Technology Council to make recommendations on how to harmonize, 
streamline, and eliminate duplicative federal regulations and reporting 
requirements. I am interested to hear from the witnesses their thoughts 
on these legislative proposal.
    I am also interested in hearing from the witnesses about how other 
legislation such as the DATA Act, which has just been enacted, and the 
GRANT Act, which has been proposed, would affect administrative burdens 
for researchers.
    Finally, I am interested in hearing about the progress that is 
already being made to streamline and harmonize administrative tasks. 
For example, I know that federal agencies have been working on 
harmonizing the grant proposal process and progress reporting 
requirements. Additionally, I understand that agencies have started 
exploring ways for researchers to submit only the information needed 
for the initial peer review phase and then requiring administrative 
information from the researchers only if the proposal is likely to be 
awarded. I look forward to hearing from the witnesses about these 
efforts and other proposals that could help reduce the administrative 
burden for researchers. In closing, federal agency and institutional 
requirements have been put in place to protect human participants and 
animal subjects in research, ensure integrity in the research 
enterprise, and eliminate waste, fraud, and abuse. There is no question 
that we need to have these requirements in place. But there is room to 
make changes to the implementation of these requirements. We must 
strike the right balance that both protects our research enterprise and 
enables scientists to spend more time on their important research.
    I look forward to all of the witness testimony and the Q&A, and I 
thank you all for being here today. I yield back the balance of my 
time.

    Chairman Broun. Dr. Lipinski, I appreciate your opening 
statement.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Ms. Johnson follows:]

          Prepared Statement of Full Committeee Ranking Member
                         Eddie Bernice Johnson

    Thank you, Mr. Chairman. I want to join you in thanking all the 
witnesses for being here.
    This morning we are discussing how to reduce the administrative 
workload for researchers. As I am sure we will hear this morning, 
numerous reviews by esteemed organizations have found that researchers 
face significant administrative burdens at perhaps too high a cost to 
benefit ratio. That is not good.
    It is clear that we must ensure full accountability for all federal 
funding. However, it is also clear that in order for our country to 
remain a leader in research, we need our researchers conducting 
research--not spending excessive amounts of time on paperwork.
    I am interested in hearing from our witnesses about ideas for 
streamlining and harmonizing some of these reporting requirements to 
ensure that researchers are spending most of their time conducting 
research.
    I do find it interesting though that we are holding this hearing on 
administrative burdens so soon after marking up the FIRST Act, which 
the National Science Board and others have pointed out would lead to 
significant increases in regulations and red tape.
    Instead of having a genuine conversation about how we can reduce 
the administrative burdens on our researchers, I am concerned that the 
Majority wants to have it both ways. They want to pass a bill that 
would add significant burdens one week and then lament all of the 
increasing burdens on researchers the next week. That doesn't make any 
sense.
    I hope that we can move to an honest conversation about how this 
Committee can help ensure that the research community has all the tools 
they need to be successful. That includes fewer administrative burdens, 
but also includes increased and predictable research funding. Otherwise 
our researchers will continue to spend more and more time applying for 
grants and checking boxes rather than conducting research.
    If we were serious about promoting U.S. science and 
competitiveness, this Committee would be investing in research and 
reducing unnecessary red tape--not providing flat funding, rewriting 
merit-review, and adding more bureaucratic burdens as the FIRST Act 
does.
    Thank you Mr. Chairman and I yield back the balance of my time.

    Chairman Broun. At this time I would like to introduce our 
panel of witnesses. Our first witness is Dr. Arthur 
Bienenstock, Chairman of the Task Force on Administrative 
Burden at the National Science Board. Dr. Bienenstock is also a 
Professor Emeritus of Photon Science, Special Assistant to the 
President for Federal Research Policy, and Director of the 
Wallenberg Research Link at Stanford University.
    Our second witness is Dr. Susan Wyatt Sedwick, Chair of the 
Federal Demonstration Partnership and President of the FDP 
Foundation. Dr. Sedwick is also an Associate Vice President for 
Research and Director of the Office of Sponsored Projects at 
the University of Texas at Austin. At least you didn't have to 
drive from Austin. That is good.
    Our third witness is Dr. Gina Lee-Glauser, the Vice 
President of Research at Syracuse University's Office of 
Research, and again, thank you so much for taking a tremendous 
effort to drive all the way down here from Syracuse. We really 
appreciate it.
    Our final witness is the Hon. Allison Lerner, Inspector 
General at the National Science Foundation's Office of 
Inspector General. Let me just say that I especially appreciate 
your presence here today, Ms. Lerner. I am aware that your 
father is not well, and I want you to know that I will keep him 
and you and your family in my prayers. So thank you.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
have five minutes each to ask questions. Your written testimony 
will be included in the record of the hearing.
    It is the practice of this Subcommittee on Oversight to 
receive testimony under oath. If you now would all please stand 
and raise your right hand? I hope no one objects to taking an 
oath. Do you solemnly swear to affirm to tell the whole truth 
and nothing but the truth, so help you God? You may be seated. 
Let the record reflect that all the witnesses participating 
have taken the oath.
    I now recognize Dr. Bienenstock for five minutes. Sir, you 
are recognized. Let me remind all the witnesses that we are 
going to have votes this morning, and so if you could, please 
try to limit your comments to five minutes. Your written 
testimony will be placed in the record. If you all could try to 
watch the clock and make sure that if you can as much as 
possible just adhere to the five minutes, I would appreciate 
it.
    Dr. Bienenstock.

         TESTIMONY OF DR. ARTHUR BIENENSTOCK, CHAIRMAN,

              TASK FORCE ON ADMINISTRATIVE BURDEN,

                     NATIONAL SCIENCE BOARD

    Dr. Bienenstock. Chairmen Broun and Bucshon, Ranking 
Members Maffei and Lipinski, and Members of the Subcommittees, 
I appreciate the opportunity to speak with you today on 
streamlining the red tape that is slowing the pace of 
scientific research.
    While this is a topic with which I have been engaged for 
many years as a former Associate Director for Science at OSTP 
and Vice Provost for Research at Stanford, I am here today 
representing the National Science Board, which is an 
independent adviser to Congress and the President. The Board's 
Task Force on Administrative Burdens recently completed a 
report on reducing investigators' administrative workload for 
federally funded research. The Board created this task force 
because our scientists are dealing with heavy administrative 
workloads that interfere with the effectiveness of our nation's 
research enterprise as indicated by successive federal 
demonstration partnership surveys. This Committee heard this 
concern voiced before at its hearing two years ago on the 
National Academies' report on research universities and the 
future of America.
    I would like to thank this Committee for your sustained 
attention to this issue including through Section 302 of the 
FIRST Act that would require the creation of a high-level 
interagency intersector committee to harmonize regulations 
across agencies. This is recommended in our report as well.
    The Board's report is available on our website, and I have 
a number of copies available here today, so I will highlight 
only a few key points in my oral remarks.
    First, I want to emphasize that the NSB is absolutely 
committed to the principle that research must be conducted with 
integrity, adherence to standards, safety and full 
accountability. Administrative compliance requirements are 
needed to ensure this. However, it is equally important that we 
achieve these goals without creating unnecessary burdens.
    Second, while regulatory requirements add to the workload 
of many stakeholders including NSF program officers and 
university administrators, our task force focused on research 
scientists and how we may be hindering their productivity. To 
prepare our report, the NSB issued an open request for 
information to the U.S. research community and held three 
roundtables across the country. Over 3,000 researchers and 
research administrators provided us with feedback. We also 
consulted with the major organizations studying research 
administration and burden issues including accrediting 
organizations for human and animal subject protections. The 
Board believes that by using stakeholder input to help identify 
and prioritize concerns, agencies like the National Science 
Foundation can provide an even better return on scarce taxpayer 
dollars.
    Let me now present our overarching findings and a few key 
recommended actions. First, the Board believes that we need to 
focus on the science. Proposals to the NSF include much 
information that is not critical to judging the intellectual 
merit and potential broader impacts of a proposal. Much 
researcher and reviewer time could be saved if materials like 
detailed budgets or postdoctoral mentoring plans were not 
submitted until after a project has been through merit review 
and deemed worthy of support.
    Second, we need a continued government-wide push to 
streamline regulations. For instance, the Federal Demonstration 
Partnership's payroll certification pilot may help us to reduce 
the burden associated with effort reporting without reducing 
accountability. You may hear more on this from both the FDP and 
Allison Lerner as she and her colleagues are reviewing this 
pilot. The Board and many universities are looking forward to 
their report and hope to learn from it.
    Third, we need to continue to push for harmonization and 
streamlining across the federal government. The OMB Uniform 
Guidance and the new research performance progress reports are 
steps in the right direction but more needs to be done. For 
example, the research community perceives that federal audit 
practices are not applied in a uniform and consistent way. The 
Board will try to facilitate discussions between the audit and 
university communities to address this. There will be ongoing 
challenges of this sort. This is why we recommend the 
establishment of a permanent high-level intersector interagency 
committee.
    Finally, the report recommends ways in which our 
universities might increase their efficiency and effectiveness 
as stewards of research and taxpayer dollars.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Dr. Bienenstock follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Broun. Thank you, Dr. Bienenstock.
    Our next witness is Dr. Sedwick. You are recognized for 
five minutes, Dr. Sedwick. Thank you.

             TESTIMONY OF DR. SUSAN WYATT SEDWICK,

           CHAIR, FEDERAL DEMONSTRATION PARTNERSHIP;

                   PRESIDENT, FDP FOUNDATION

    Dr. Sedwick. Thank you. Chairman Broun, Chairman Bucshon, 
Ranking Members Lipinski and Maffei, and honorable Members of 
the Oversight and Science and Technology Subcommittees, my name 
is Susan Wyatt Sedwick. I am Chair of Phase V of the Federal 
Demonstration Partnership and also serve as President of the 
FDP Foundation. As you will note from my CV, I am an Associate 
Vice President for Research and Director of the Office of 
Sponsored Projects at the University of Texas at Austin. I 
appreciate your invitation to appear before you today to 
provide an overview of the FDP's involvement in efforts to 
reduce the administrative burdens facing institutions and 
principal investigators that receive federal funding to conduct 
scientific research while not compromising proper stewardship.
    The FDP began in 1986 as the Florida Demonstration Project, 
and as of October 1 of this year, we will have grown to 
membership of over 155 research institutions and 10 federal 
agencies as members of Phase VI. The National Academy of 
Science, Government, University Research Roundtable serves as 
the neutral convenor of the FDP.
    The FDP acknowledges the need for federal government to 
ensure transparency, accountability and the efficient use of 
federal research funding, but the 26 percent cap on the 
reimbursement of administrative costs to universities has not 
kept pace with the growing regulatory burden. Since the 
imposition of the cap over 20 years ago, university research 
has been subject to over 80 new or significantly revised 
regulatory requirements. This does not include the extremely 
burdensome requirements associated with the American Recovery 
and Reinvestment Act funding support.
    Almost 20 years ago, the FDP first surveyed federally 
funded faculty researchers to evaluate the Florida 
Demonstration Project's first demonstration of the expanded 
authorities which allowed grantees to perform some actions such 
as unilaterally extending final project periods for up to 12 
months without prior federal agency approval. The results 
indicated that those expanded authorities save significant 
time, much of which could be redirected toward actively 
conducting research.
    In 2005 and in 2012, the FDP conducted faculty workload 
surveys of principal investigators of federally funded research 
to document the continuing impact of federal regulations and 
requirements on the research process. The 2012 survey reached 
almost twice as many investigators as the first survey, 
accumulating responses from almost 13,500 principal 
investigators with active research grants funded by the federal 
government. The results from both surveys were astonishingly 
similar. Researchers estimated that an average of 42 percent of 
their research time associated with federally funded projects 
is spent on meeting administrative requirements rather than 
conducting active research. These findings mirror those of the 
NSB survey and suggest that whatever progress may have been 
made in reducing administrative burdens has been countered by 
the introduction of new requirements.
    The FDP's payroll certification demonstration is an example 
of how the FDP works to provide less burdensome alternatives to 
meeting regulatory requirements. With payroll certification, 
the focus shifts to certification cycles that coincide with 
project funding periods so principal investigators spend much 
less time trying to translate the extrapolated percentages of 
effort that are inherent with the disconnect between effort 
reporting and accounting cycles and project funding periods.
    The Office of Management and Budget has published its 
Uniform Guidance, which combines the requirements of eight 
longstanding OMB circulars, including those impacting 
universities. The Council on Financial Assistance Reform must 
be commended for their laudable work at combining requirements 
for diverse grantees. However, one size fits all doesn't fit 
anyone well.
    There are some positive changes in the Uniform Guidance as 
outlined in my written testimony. It remains unclear whether 
the Uniform Guidance will offer any demonstrable relief but it 
is clear that in some cases, certain requirements may 
exacerbate the administrative burdens that are already breaking 
the backs of universities and principal investigators. As an 
example, new procurement requirements more applicable to the 
government's acquisition of commodities may result in thousands 
of transactions for research supplies being delayed on average 
by two or more weeks at most institutions.
    The FDP is perfectly positioned to provide a forum and test 
bed for exploring possibilities that will benefit our nation's 
research viability while shaping a more efficient and effective 
research enterprise.
    I would like to close by expressing my sincere appreciation 
to the Committee and Congress for the continued support of 
academic research and your proposal to consider a holistic 
approach to reform. Thank you.
    [The prepared statement of Dr. Wyatt Sedwick follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Broun. Thank you. Dr. Sedwick.
    Now, Dr. Lee-Glauser, you are recognized for five minutes. 
Thank you.

               TESTIMONY OF DR. GINA LEE-GLAUSER,

                  VICE PRESIDENT FOR RESEARCH,

            SYRACUSE UNIVERSITY, OFFICE OF RESEARCH

    Dr. Lee-Glauser. Thank you. Chairmen Broun and Bucshon, 
Ranking Members Maffei and Lipinski, and distinguished Members 
of the Subcommittees. Thank you for the invitation to testify 
at this joint Subcommittee hearing. It is both timely and 
important in light of the recently released reports on 
administrative burden. I will discuss the role and impact that 
federal research regulations have on Syracuse University and 
our principal investigators and comment on select 
recommendations of National Science Board's administrative 
burdens report most relevant to SU.
    My remarks will focus on three topics: the application 
process, research subjects' protections and progress reporting.
    Syracuse University is a member of the FDP and we have 
participated in its administrative burden surveys. With and 
through the FDP, we strive to put our limited resources to 
their best use in support of research. Time perhaps is the most 
precious resource of our faculty and staff and we all share in 
the responsibility to identify and implement processes that 
efficiently and effectively allow us to achieve our goals of 
supporting research without compromising our accountability to 
sponsors' requirements, the safety and well-being of research 
participants or the welfare of our nation and the environment.
    The question we are all grappling with is, how best to 
achieve these ends. Complicating our collecting efforts is the 
construction in federal support for research. As a consequence, 
Syracuse University faculty members are submitting greater 
numbers of proposals in order to just get one application 
funded. The success rates of the research programs to which SU 
faculty apply including the NSF and NIH are now in the single 
digits. So, our faculty are spending considerable time 
rewriting applications for the next cycle. Disturbingly, there 
is likely no meaningful difference in quality or the potential 
impact between the funded applications and the next tier of 
non-funded applications. So in addition to the time lost for 
our researchers, the pace of innovation and of knowledge 
creation is delayed.
    This discouraging state of competitive funding also is 
having a chilling effect on our students. I am passionate about 
supporting students from the groups underrepresented in the 
academy and STEM disciplines as you do. I have directly 
observed the stifling effect that the current funding 
environment is having on these students' career plans. Every 
day they see their advisors cope with the stress caused by an 
uncertain funding environment and the challenges in 
successfully achieving work-life balance and so most are 
choosing to pursue non-academic careers. This is a tragedy for 
research institutions that desperately need the diversity of 
thought and experience that these exceptionally talented 
individuals bring.
    The NSB has recommended a number of ways to streamline the 
proposal submission process. I support them and would suggest 
another, that research granting agencies be required to use the 
Grants.gov portal or system like FASTLANE. Public Law 106-107, 
the Federal Financial Management Assistance Act of 1999, 
created the foundation for Grants.gov. It expired in 2007, 
perhaps enabling the proliferation of new grant application 
systems.
    A second burdensome area for SU faculty pertains to 
adhering to regulations governing human and animal subjects. 
These regulations importantly protect the rights of research 
subjects and ensure that the risks and benefits are assessed 
and managed appropriately. Human subjects' research at Syracuse 
is predominantly social or behavioral in nature and so is 
ordinarily of low risk. However, current federal regulations do 
not yet provide a clear framework to more efficiently oversee 
this lower-risk research. SU supports the Board's 
recommendations to address this issue as well as similar 
changes to animal use procedures.
    Lastly, I know that submission of research progress reports 
is often a pain point for my faculty. We look forward to the 
efficiencies expected from the federal-wide implementation of 
the Research Performance Progress Report. Like all new tools, 
we know that there will be hiccups along the way, but the 
willingness of our federal research sponsors to work in 
collaboration with the FDP and the grantee community to further 
enhance these reporting tools will go a long way to reducing 
administrative burden on our faculty.
    I would like to close with a few remarks about the recently 
released OmniCircular. Syracuse, like other research 
universities, is currently evaluating the impact of the 
Circular's new provisions on our current policies and 
procedures. We view this as an opportunity to identify and 
implement reengineered processes that will allow us to more 
efficiently and effectively use federal funds in support of 
research. We are also closely monitoring agency implementation 
of these regulations, with the hope that there will be very few 
deviations from the provisions. I ask this Committee's help in 
avoiding the introduction or enactment of new legislation that 
would result in additional grant-related requirements on an 
agency and the grantees.
    I thank the Committee for taking a leadership role on this 
important topic and I would be happy to answer any questions 
you may have. Thank you.
    [The prepared statement of Dr. Lee-Glauser follows:]
    [GRAPHIC] [TIFF OMITTED] T9408.035
    
    [GRAPHIC] [TIFF OMITTED] T9408.036
    
    [GRAPHIC] [TIFF OMITTED] T9408.037
    
    [GRAPHIC] [TIFF OMITTED] T9408.038
    
    [GRAPHIC] [TIFF OMITTED] T9408.039
    
    Chairman Broun. Thank you, Dr. Lee-Glauser.
    Now, Ms. Lerner, you are recognized for five minutes.

             TESTIMONY OF THE HON. ALLISON LERNER,

                       INSPECTOR GENERAL,

                  NATIONAL SCIENCE FOUNDATION,

                  OFFICE OF INSPECTOR GENERAL

    Ms. Lerner. Thank you, Mr. Chairman. I appreciate the 
chance to discuss the National Science Foundation Office of 
Inspector General's perspective on the National Science Board 
report, Reducing Investigators' Administrative Workload for 
Federally Funded Research, our audits of the Federal 
Demonstration Partnership pilot effort reporting systems and 
the comments our office provided the Office of Management and 
Budget during its creation of the Uniform Guidance on 
Administrative Requirements, cost principles and audit 
requirements for federal awards. Because both the NSB report 
and the Uniform Guidance address the need for changes to the 
effort reporting process, I will begin with that issue.
    Every year, billions of dollars in federal funds are spent 
for salary cost of individuals who work on federal grants. 
Labor effort reports are essential documents for ensuring 
accountability of grant funds as they represent the main 
support for salaries and wages charged under those awards. Over 
the years OIG auditors and investigators have repeatedly found 
that not all of these charges are appropriate, and some are 
even fraudulent. My office has had numerous investigations 
involving university grantees that have failed to adequately 
track time and effort. The cases that have been resolved to 
date have resulted in criminal convictions, civil settlements 
under the False Claims Act, and government-wide suspensions and 
debarments. In many cases, those outcomes would not have been 
possible without effort reports.
    As part of the Federal Demonstration Project, labor effort 
pilots of universities' payroll distribution systems are 
underway at four universities. My office and the HHS Office of 
Inspector General are auditing those pilots, and we hope to 
complete our work by the end of the calendar year.
    The NSB report on administrative burden identified effort 
reporting as a top area of concern and recommended that OMB 
identify a way for the piloted approaches to be used by 
universities and accepted by OIGs. We appreciate the fact that 
the report recognized the importance of having the pilots 
audited, and I look forward to discussing the results of those 
audits when they are complete.
    The NSB report also made findings about administrative 
burden resulting from financial management, noting several 
audit folks' concerns. It is unclear to me what the respondents 
meant when they indicated that auditors were exceeding 
requirements. Most grant-related audit work conducted by OIG 
would use OMB circulars or the Uniform Guidance as criteria and 
be conducted in accordance with audit standards, which should 
contribute to consistency in audit approaches. I would be happy 
to facilitate a dialog between the grantee and the IG 
communities to obtain greater insights on this issue.
    The report also urged universities to consider requiring 
receipts only for large purchases. While it is hard to see that 
requiring receipts for purchases made using federal funds 
imposes a substantial burden, the lack of such receipts would 
have an immediate and detrimental impact on both an 
institution's and an OIG's ability to detect and prosecute 
fraudulent purchases. Requiring receipts only for large 
purchases would not provide protection for the not infrequent 
situations where individuals make many small fraudulent 
purchases with grant funds that eventually add up to a great 
deal of money.
    Finally, to put the impact of audits in perspective, it is 
important to recognize that most institutions are not audited 
by OIGs on a regular basis. NSF funds approximately 2,000 
universities, colleges and institutions annually. Due to size 
and resource constraints, my office conducts fewer than 20 
audits of such recipients each year.
    With respect to the Uniform Guidance, our office led an IG 
community working group that worked diligently to ensure that 
the right balance between reducing burden and maintaining 
accountability was struck. The OMB circulars include many tools 
essential for combating fraud, waste and abuse. Using these 
tools, OIGs have identified situations where recipients have 
misused grant dollars and been able to pursue criminal, civil 
and administrative actions to recover those funds. The feedback 
we provided to OMB highlighted the importance of maintaining 
and not diminishing or eliminating valuable tools such as 
effort reports, cost accounting standards and disclosure 
statements, certifications and Single Audits.
    Unlike contracts, the federal government has little insight 
into how grant funds are used by awardees. It is therefore 
essential that tools like IG audits and Single Audits, which 
are used to ensure accountability over federal funds, remain 
robust and provide sufficient oversight.
    While we recognize the need for a reasonable amount of 
flexibility to limit administrative burden, acceptance of 
public money brings with it a responsibility to uphold the 
public trust. NSF awardees must never forget that they are 
spending the public's money and that they will be held 
accountable for using that money for its intended purpose.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Lerner follows:]
    [GRAPHIC] [TIFF OMITTED] T9408.041
    
    [GRAPHIC] [TIFF OMITTED] T9408.042
    
    [GRAPHIC] [TIFF OMITTED] T9408.043
    
    [GRAPHIC] [TIFF OMITTED] T9408.044
    
    [GRAPHIC] [TIFF OMITTED] T9408.045
    
    [GRAPHIC] [TIFF OMITTED] T9408.046
    
    [GRAPHIC] [TIFF OMITTED] T9408.047
    
    [GRAPHIC] [TIFF OMITTED] T9408.048
    
    Chairman Broun. Thank you, Ms. Lerner. I thank you all for 
your testimony, and I really appreciate the witnesses being 
here today. Committee rules limit questioning to five minutes 
per Member, and the Chair at this point will open the first 
round of questions, so the Chair recognizes himself for five 
minutes.
    Dr. Bienenstock and Dr. Sedwick, as you know, the National 
Science Board's recent report notes that there has been an 
increase in administrative and compliance requirements 
associated with federally funded research. However, the Federal 
Demonstration Partnership's recent survey noted the principal 
investigators spend 42 percent of their time on associated 
administrative tasks, as Dr. Sedwick just told us, and that is 
the same as it was in 2005. I wonder about that, but it is an 
interesting piece of data. How can one claim an increase in 
administrative and compliance requirements when that 42 percent 
figure has remained static since 2005? Dr. Sedwick, why don't 
we start with you?
    Ms. Sedwick. Efforts of my colleagues and the FDP to 
limit--after we had the first survey, we have really stepped up 
our efforts to really focus on removing the administrative 
burdens on our faculty, and an example of this, when the ARRA 
reporting, the American Recovery and Reinvestment Act 
requirements for reporting came out, we worked very hard at 
minimizing the input that we had to get from our faculty, and 
we took that on our chins by developing systems, electronic 
systems, and these were not minimal endeavors. And so I think 
that we have worked very hard to minimize those increases in 
our faculty, and quite frankly, we were surprised that the 
number was exactly 42 percent but we were grateful that it had 
not increased.
    Chairman Broun. This is unacceptable. Forty-two percent to 
me is a tremendous regulatory burden.
    Dr. Bienenstock, what are your comments or answer?
    Dr. Bienenstock. I am afraid my age shows here. I was a 
working scientist in the late 1980s and early 1990s, and there 
was a marked change in the administrative load after A-21, the 
circular governing reimbursement of universities, was modified. 
That did away with much administrative support that we had as 
faculty. So when I say that it is increased, it is increased 
relative to the situation that I faced as a scientist back in 
the late 1980s and early 1990s before that modification of A-
21, and it is markedly different now.
    Chairman Broun. For all witnesses, what do you all consider 
to be an acceptable amount of time for researchers to spend on 
associated administrative tasks? Let us start with Ms. Lerner 
and we will go down.
    Ms. Lerner. I don't think that I can give you a strict 
percentage, not being a working scientist myself. Certainly, 42 
percent does seem like a great amount of time but some of the 
activities are obviously highly important. Ensuring the 
protection of human subjects and informing funders and the 
public about the progress of research are obviously very 
important factors.
    Chairman Broun. So the IG Office doesn't have any comment 
about that?
    Ms. Lerner. I would defer to people more involved in that 
process than me.
    Chairman Broun. Dr. Lee-Glauser?
    Dr. Lee-Glauser. As an engineer and practiced in both 
industry as well as NASA, now at the universities, I cannot 
just tell you percentages but I think when we went into this 
discipline, we wanted to make an impact and we wanted to make a 
contribution in innovating, and I think even ten percent would 
be too much, but at the same time, understanding what is 
required and due diligence, and I think there are amicable 
compromise. What is really exacerbating the situation is 
funding levels. When you have to constantly looking out for 
where your next funding to support all your postdocs and 
graduate students and undergraduates, I think that is a part of 
that exacerbation from our faculty members.
    Chairman Broun. Okay. Dr. Sedwick?
    Ms. Sedwick. Since I am representing the FDP, I don't want 
to--this has not been discussed, a particular number, but I do 
want to tell you that we know that it is not zero.
    Chairman Broun. What is your personal feeling of the 
percentage?
    Ms. Sedwick. I think----
    Chairman Broun. What is a good compromise?
    Ms. Sedwick. A reasonable goal would be to cut that half. I 
mean, if we could get down to 20 percent or so, I think that 
would be reasonable.
    Chairman Broun. Okay. Dr. Bienenstock?
    Dr. Bienenstock. You know, the problem is that we are 
dealing with regulations that serve a real function. I don't 
have a number in mind. I think what we are going to have to do 
is just chip away and chip away at this. I was really pleased 
to hear Ms. Lerner propose that the audit community and the 
university communities get together. We are just going to have 
to chip away, and there is no magic bullet. We are just going 
to have to eat away at little things.
    Chairman Broun. Okay. Thank you, Dr. Bienenstock.
    My time is expired. Mr. Maffei, you are recognized for five 
minutes.
    Mr. Maffei. Thank you, Mr. Chairman, and again, I think 
this is a tremendously important hearing to have, so thank you 
again for that.
    I would like to ask Dr. Bienenstock, so we have been 
talking about trying to get this cut yet I fear that the FIRST 
Act may add to the administrative burden. There are several 
changes to the merit review process that I think would lead to 
NSF having to develop new policies for peer reviewers and PIs. 
Could you speak a little bit to the potential impact of some of 
these changes in this bill should it become law? Would that add 
to it?
    Dr. Bienenstock. First of all, let me repeat my applauding 
the call for OSTP to form a committee to harmonize regulations. 
Harmonization is a key way to save researchers' administrative 
time. For that reason, I was a little surprised by the 
treatment of research misconduct. When I was at OSTP, it took 
me three years to get all the agencies to agree on a common 
definition of research misconduct and on common procedures for 
dealing with an allegation of research misconduct.
    So it was surprising to find in the same Act a section that 
would completely deharmonize NSF from all the other agencies in 
the treatment of allegations of research misconduct. It would 
be particularly troublesome in a situation in which a paper was 
funded by both the NSF and the NIH, for example, in which there 
was an allegation of research misconduct. Because NSF was a 
funder, the Inspector General would have a responsibility for 
dealing with the allegation. Because NIH was a funder, the 
university would have the responsibility or initial 
responsibility with dealing with it. I think that section is 
going to create real problems for the community.
    Let me say once more that as Stanford's Vice Provost for 
Research, I had to deal with allegations of misconduct. Some of 
them were really subtle, and I was fortunate that I could 
immediately call upon faculty members who had expertise in the 
field because there was no way that I could figure out whether 
it was misconduct or two researchers trying to use research 
misconduct as a way of settling what should have been a 
scholarly argument. I think you are going to add to the burden 
of the IG and we are going to have chaos.
    Mr. Maffei. Dr. Bienenstock, that is extremely helpful, and 
I hope we can, you know--we passed it through Committee but I 
hope we can before it becomes law take a look at that to try to 
reduce as much as possible.
    I do want to get back to this point that was made by a 
couple of people. We are dealing with 42 percent. That is an 
estimate. Who really knows what the answer is, but way, way too 
high. I think we are all agreed on that. The issue, though, is 
that we can reduce the regulatory burden significantly. Let us 
assume we can. It is still--the number of times you apply for 
the same grant proposal is going to increase the percentage of 
time that scientists are spending on paperwork. So again, Dr. 
Lee-Glauser, I will ask you because you talk about the 
discouraging state of competitive funding, is this burden, even 
if we are able to reduce it somewhat by just reducing the 
paperwork requirements, but is this burden of constantly having 
to reapply for funds, is that turning off young people to the 
sciences? Are you seeing an effect on that?
    Dr. Lee-Glauser. I think----
    Chairman Broun. Turn on your microphone, please.
    Dr. Lee-Glauser. Sorry. I think greater number of students 
are thinking twice about going into academics, and I think what 
I am really scared of is women and underrepresented minority 
students. They see their faculty hustling left and right and 
constantly working 24/7, and I hear from them, if I have to 
work like that, I would rather do something else, and yet their 
idea of coming into university and trying to get a Ph.D. was to 
teach and they ended up working elsewhere. I have a number of 
underrepresented, exceptional underrepresented minority 
students going into industries left and right as well as 
government labs.
    Mr. Maffei. Okay. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Chairman Broun. Thank you, Mr. Maffei.
    Now Dr. Bucshon, you are recognized for five minutes.
    Mr. Bucshon. Thank you, Chairman Broun.
    First of all, let me make a comment about competitive 
funding. Obviously there needs to be competition, and when you 
are funding, there is never going to be a time where 100 
percent of people's proposals are going to be accepted for 
funding. The question I have is where do we strike that balance 
to make sure that we are funding basic science research from 
the federal level at the appropriate level that is not impeding 
the ability of the scientific community to actually make 
progress, but also not fund projects that clearly, in my view, 
are not in the national interest or worthy of the taxpayer 
dollars. There is a very difficult balance there, and there is 
disagreement in Congress of where that balance is. I would 
think everyone would agree that it is probably a little--I 
would agree, I will give my opinion--that it is probably a 
little lower than it should be at this point and hasn't kept 
up. The argument that always throwing more dollars into it 
without continuing to look at that balance is something we need 
to be careful about because as a steward of the taxpayer dollar 
myself, we want to make sure that things are funded at the 
appropriate level but not wasting money.
    The other thing is, anyone that has ever filled out FAFSA 
if you have a college student--anybody ever fill that out--
knows that there is reporting and then there is reporting. So 
my question is to your point, Ms. Lerner and everyone else, 
there is valid reasons to have reporting when we are looking at 
getting federal dollars to fund projects. I think areas to look 
at are making sure the reporting is reporting the appropriate 
things that need to be reported, but leaving out stuff that 
really has no impact on the grant proposal, and I am hearing 
some of that is happening. Dr. Bienenstock, do you want to 
comment on that first?
    Dr. Bienenstock. Well, we definitely proposed that progress 
reports, annual progress reports, be limited to the pertinent 
scientific information and outreach information that is needed 
to assess progress and that we strip away other aspects of it. 
Similarly, in proposal writing, we propose that initially the 
proposals be limited to those things needed to assess whether 
it is appropriate to fund the research and only when the 
decision has been made that the research should be funded do we 
request the other information.
    Mr. Bucshon. Dr. Lee-Glauser, do you want to comment on 
that?
    Dr. Lee-Glauser. Totally in agreement. I think we need to 
use it just in time.
    Mr. Bucshon. I think this is a potential area where my 
personal view of hearing your testimony that without limiting 
accountability that there is some significant progress that can 
potentially be made to improve the situation. Ms. Lerner, do 
you have any comments on that?
    Ms. Lerner. I would certainly agree that progress can be 
made.
    Mr. Bucshon. The other question, how much administrative 
workload faced by universities is due to federal agency 
requirements versus institutional requirements? Dr. Lee-Glauser 
maybe can comment on that first.
    Dr. Lee-Glauser. Now you are putting me on the spot here, 
and I think both. So part of--in light of the OmniCircular, we 
are reviewing our institutional policies that we have and how 
do we meet the requirements but how do we look into 
reengineering rather than just comparing and how to meet the 
requirement to meet the OmniCircular. We want to have process 
improvement in mind so we are looking that way. Yes, we do have 
internal policies and procedures that are very, very cognizant 
about and we wanted to streamline those as well.
    Mr. Bucshon. Dr. Sedwick?
    Ms. Sedwick. The focus at our universities is on mitigating 
risk but I think that in the same way that teaching to the test 
is maybe not always the best way to educate, administering to 
the audit, which is what happens often in these situations, is 
not the best way to reduce the administrative burden, and I 
think that we all live in fear of audit findings. And so it is 
very true that sometimes we maybe overextend what we could do 
and we are taking that same look at all of our institutions, 
but again, whenever you have change, we are all wondering what 
that is going to mean for future audits because it is an 
uncertain future.
    Mr. Bucshon. Thank you. I yield back, Mr. Chairman.
    Chairman Broun. Thank you, Dr. Bucshon.
    Now Dr. Lipinski. We have got a lot of doctors up here as 
well as down there. We have two physicians and a Ph.D.
    Mr. Lipinski. I was going to ask the----
    Chairman Broun. Dr. Lipinski, you are recognized.
    Mr. Lipinski. I was going to ask the Chairman not to refer 
to me as doctor because the real doctors are over there, people 
actually heal people, and so I usually don't like to use the 
doctor for my Ph.D., especially if someone is looking for 
emergency help. But I do appreciate whoever just turned the air 
conditioning on. I do appreciate that help.
    I saw, Dr. Bienenstock, you had your hand up there. You 
wanted--why don't you continue? I think you had a comment on 
that last question.
    Dr. Bienenstock. I just wanted to say that universities do 
fear audits and they fear--and are often more conservative than 
federal government regulations would require, and that is why I 
think Ms. Lerner's suggestion or pledge to seek a meeting 
between the universities and the audit communities is so 
important, and I think she deserves our praise for leading that 
effort.
    Mr. Lipinski. Thank you, and I want to thank you for your 
comments on some of the provisions of the FIRST Act, and I know 
we had worked on the--you have been helpful with comments when 
we did the last NSF reauthorization bill, and I appreciate your 
work there and especially also the fact that I am a Stanford 
graduate and much appreciate it.
    I wanted to focus on the Omni Circular, which is scheduled 
to be implemented at the end of this year. I would like to get 
everyone's thoughts briefly on the Omni Circular. What are the 
areas in which it helps reduce administrative burdens the most 
and does it address the leading concerns of the scientific 
community? What other issues remain unaddressed? So just sort 
of your--a few comments, a couple comments from each of you on 
the Omni Circular, where you think this helps and where more 
might be done.
    Ms. Sedwick. I will be happy to address that. I have been 
very involved in looking at the Uniform Guidance and what the 
wins are for universities and what the areas are that we are 
most concerned about. The treatment of terminal pay as an 
indirect cost, which indirect costs are capped at our 
universities, will once again be another unfunded mandate. The 
manner in which we are going to have to compete our procurement 
actions that are $3,000 and above is going to be a significant 
burden and change for our institutions, and these are two 
examples of the types of changes in the Uniform Guidance that 
are going to require revision of systems and processes and 
policies that are outside of the purview of research 
administration offices. So, you know, at each of our 
institutions, we are working across our campus to try to come 
up with implementation strategies for our own institutions, and 
as we understand it, we are not even going to see the 
implementation plans for the agencies besides the National 
Science Foundation's perhaps until the date that the Uniform 
Guidance goes into effect. So it is rather hard for us to plan 
our own implementations when we don't know how those might be 
different among agencies.
    Mr. Lipinski. Dr. Bienenstock?
    Dr. Bienenstock. There was one feature that I really like, 
and that is the ability to charge administrative time that is 
directly linked to the research to the contract itself. That 
was the way we did things prior to about 1991, and it meant 
that one could get administrative help locally. That is an 
extremely important change.
    Let me explain why we are so stressed out over effort 
reporting, and it is almost a question of integrity. That is 
suppose I have two grants and a new technique comes out. Well, 
I have got to study that technique as a PI and spend a fair bit 
of time deciding is it applicable to grant A, is it applicable 
to grant B. Now, suppose it isn't applicable to either. On the 
one hand, it would have been negligent of me not to study it 
and see if it was applicable but then how do I charge that time 
to the two grants or suppose it is applicable, how do I charge 
the time that I spend teaching a graduate student about it. Is 
that teaching or is that research? So you put a scientist in a 
situation where he or she must affirm in detail how time is 
spent where one cannot do that with integrity. It is for that 
reason that we are so looking forward to the Inspector 
General's report on the payroll certification with the hope 
that--we expect that there will be difficulties but we hope 
that the IGs and OMB and the university community will find a 
way of making that method meet our needs and meet the needs of 
the auditing community.
    Mr. Lipinski. Thank you. I see I am out of time. Yield 
back.
    Chairman Broun. Thank you, Dr. Lipinski. By the way, my 
father-in-law was an agronomist, a tropical-soil specialist at 
Purdue University, and he would argue with me all the time that 
a Ph.D. was the original doctor.
    So anyway, let us see. The next Member is Mr. Johnson. Mr. 
Johnson, you are recognized for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you to the 
panel for being with us today.
    As I am sure many of you know, Ohio State University is a 
major academic institution within my home state. Its continual 
and significant contributions to the scientific community and 
to the State of Ohio must be able to continue free of 
ineffective and burdensome administrative regulations. OSU has 
about 600 active subawards with multiple agencies at any one 
time, the vast majority of which are with other academic 
institutions to which the federal government also makes direct 
awards. However, Ohio State, like many institutions of higher 
education, believes that it is required to subject subawardees 
to much higher levels of scrutiny than when federal agencies 
monitor awardees that have been funded directly. Many believe 
that these additional requirements on universities to monitor 
each other are a total waste of effort and resources.
    So for each of you, how can we improve this process of 
subrecipient monitoring of grant subawards to alleviate this 
burdensome administrative process that is placed on these 
institutions? And I will let any of you answer that would like 
to. Ms. Sedwick--Dr. Sedwick. Sorry.
    Ms. Sedwick. That is okay. My daughter is a physician and 
she calls me a faux doctor.
    Mr. Johnson. She calls you Mom, too, right?
    Ms. Sedwick. Yes, she does.
    Mr. Johnson. There you go.
    Ms. Sedwick. This is one of the areas of the Uniform 
Guidance that we as research administrators were disappointed 
because we felt like--that we could concentrate--if we got some 
relief in subrecipient monitoring of other institutions that 
are audited under the A-133 standards, that if we could spend 
less time on our subrecipient monitoring for them, we could 
concentrate our efforts and spend our resources really looking 
at those subawardees who do pose a greater risk, foreign 
subawardees, small startup companies or smaller institutions 
that maybe don't have that kind of annual audit scrutiny. So 
that is one of the things that we would have really liked to 
have seen in the Uniform Guidance.
    Mr. Johnson. Okay. Anybody else care to respond on that 
one?
    Okay. Well, you know, for Ms. Lerner, similar to the grant 
proposal findings and recommendations included in the National 
Science Board's recent report on reducing administrative 
burden, OSU has stated that many principal investigators have 
struggled with an increase in grant proposal resubmissions due 
to the continual development of more complex and detailed 
proposals, coupled with declining funding rates. So what steps 
has the NSF already taken to address these concerns?
    Ms. Lerner. I think that question might be better addressed 
to someone from the foundation proper. As the auditor or the 
independent body within the foundation, we don't have a role in 
determining what projects are funded and what the process is, 
so I can't speak directly to what the foundation has done 
there.
    Mr. Johnson. Okay. All right. Yes. Go right ahead.
    Dr. Bienenstock. A section of the National Science 
Foundation is piloting a program of pre-proposals, and in that 
way you can weed out about 50 percent and even more of the 
proposals that are not likely to get funding. These pre-
proposals are very short. So that reduces both the amount of 
time that the proposers spend on writing the proposals and also 
the amount of time that the reviewers spend.
    In response to that question I have to say that this 
Committee could do us a great deal of good if it would modify 
the authorization bill in a way--presently, the authorization 
of the America COMPETES Act requires that postdoc mentoring 
plans be included in the original proposal. We value very 
highly postdoc mentoring programs but we believe that that 
could be put off until we know that a proposal is likely to be 
funded, and we need legislation altered in order to achieve 
that.
    Mr. Johnson. Well, thanks for being very clear on that. I 
appreciate it.
    Mr. Chairman, I yield back.
    Chairman Broun. Thank you, Mr. Johnson.
    Now, Ms. Kelly, you are recognized for five minutes.
    Ms. Kelly. Thank you, Mr. Chair. Good morning.
    In the NSB report, the FDP survey, and other recent 
reports, time and effort reporting is identified as a leading 
concern for researchers in terms of time spent on paperwork 
while being a poor metric for the conduct of science. Can you 
elaborate on the nature of the concerns and what efforts are 
underway to try to simplify or mitigate the burden of this 
requirement? And anyone who wants to answer.
    Ms. Sedwick. Okay. Imagine if you will that you are a 
principal investigator in your office, your lab, and you are 
funded from different funding streams. You have your 
institutional duties and then you have projects that don't have 
the same project period. And so in effort reporting once or 
twice a year we ask the faculty to look at those percentages 
that were individuals on their awards, their postdocs, graduate 
students related to your staff, how much time they spent. Did 
they actually spend the time that they were supposed to spend 
on those projects? Which that is all fine and good but it is 
very confusing because it doesn't have a 1:1 correlation.
    Our payroll certification project has the certification for 
the specific project, so you are looking at that on an 
annualized basis and it is just much easier for the faculty to 
look at it on a project-by-project basis versus in the whole.
    Ms. Kelly. Anyone else?
    Dr. Lee-Glauser. One of the things that--Art was pointing 
it out earlier, when you are doing the research, it really is 
very hard to compartmentalize whether it is a project A or 
project B or project C, especially very active faculty members 
may have multiple grants and contracts and it is not all from 
the federal government; it could be from the corporations as 
well. So it is very hard to--as Art pointed out, if you are 
finding something new, are we supposed to stop? As a 
researcher, curiosity is the best effort to go through in that 
process and then trying to find it out, where do I docket that 
time, whether it is with a graduate student or undergraduate or 
postdoc. So these are some of the inherent challenges in a 
research institution.
    Ms. Lerner. And as the auditor on the panel, I am not going 
to tell anyone that the current effort reporting system is 
perfect. It is not. And I think that things could be made 
better. But the thing to bear in mind is the amount of money 
that goes towards salaries each and every year. We looked at 
two years, fiscal years 2012 and 2013. NSF put about $11 
billion into research funding; $4 billion of that approximately 
went to salaries. That is about 36 percent of the research 
funding in a year. So there needs to be some way of ensuring 
that that money is spent appropriately.
    Ms. Kelly. So you are saying it is vital for 
accountability----
    Ms. Lerner. Yes.
    Ms. Kelly. --and you have examples of how things----
    Ms. Lerner. Yes, absolutely.
    Ms. Kelly. --grant funds have been misused. Is there a 
middle ground?
    Ms. Lerner. I think, you know, that that is the thing for 
us to discuss right now, and that is why our community has 
stepped up and offered to come in and audit these pilots 
because if there is a better way of doing things, we want to 
embrace that.
    Ms. Kelly. Okay. Thank you very much.
    I yield back.
    Chairman Broun. Thank you, Ms. Kelly.
    And, Mr. Collins, you are recognized for five minutes.
    Mr. Collins. Well, thank you, Mr. Chairman.
    I want to thank the witnesses. I am new to this Committee 
and I found this very interesting. By the way, I have 
participated in some CDC grants so I know something about this, 
although not necessarily as you are talking about, the 
professors.
    Ms. Lerner, I am hearing a willingness of the IG to work 
with the universities, call it continuous improvement, to have 
that conversation?
    Ms. Lerner. Certainly we have to maintain auditor 
independence, but we should obviously be involved in a dialogue 
about accountability and about how to improve things. So I 
think there is a way of being involved in that conversation 
while maintaining independence.
    Mr. Collins. Yeah. I mean calling that balance, the IG is 
open to----
    Ms. Lerner. Yeah.
    Mr. Collins. --suggestions coming in, streamlining ways to 
make sure your auditors know taxpayer dollars are being----
    Ms. Lerner. Exactly.
    Mr. Collins. --protected and lessening the burden to the 
extent but you need to make sure taxpayer dollars are being 
properly spent.
    Ms. Lerner. We do. And what I hate to see happen sometimes 
is conversations get very far along without the audit community 
being included and then people think solutions have been 
reached and we have to come in and rain on the parade. So it is 
better to be involved in the conversation early on.
    Mr. Collins. Now, what I am hearing, the 26 percent 
overhead rate----
    Ms. Lerner. Twenty-six percent?
    Mr. Collins. Did I hear that from Dr. Sedwick that----
    Ms. Lerner. That was her recommendation as a kind of middle 
ground.
    Ms. Sedwick. The 26 percent is a cap that was imposed back 
in the 1990s on the ability for universities to be reimbursed 
for their administrative costs, and almost all research 
universities that belong to the FDP far exceed that cap.
    Mr. Collins. So does that just go in as a plug number when 
they are doing it and then you just say times 1.26 or----
    Ms. Sedwick. The 26 percent is the administrative portion 
of our facilities and administrative costs and it is capped and 
then we negotiate our negotiated rate, which is then applied.
    Mr. Collins. Right. So that is really not audited so much. 
That is just an automatic slipped-in number? Yeah, okay.
    But if it was--what you're, Dr. Sedwick, suggesting perhaps 
that didn't cover everything. For every dollar that we 
increase, that would be, to refer to Dr. Lee-Glauser, a dollar 
then not spent somewhere else.
    Dr. Lee-Glauser. That is right.
    Mr. Collins. You can't have it both ways. It is called 
balance. I look at it that it is probably not a bad balance.
    Ms. Sedwick. Well, in my administrative--I mean my written 
testimony, I talk about the fact that the administrative 
burdens on our faculty are exacerbated by the fact that we are 
trying to, in our offices, absorb as much of the administrative 
burden as we can but every time we have to take on a new 
regulation, then those are dollars that we have to spend on the 
administrative requirements versus just helping our faculty 
with their administrative tasks.
    Mr. Collins. No. No, understood. Dr. Lee-Glauser, you have 
many principal investigators. I have to assume they don't all 
have the same hit rate when they are applying. They don't have 
the same amount of time. Have you gone to really try to deep-
dive why is this investigator hitting 40 percent and this one 
three percent and why does--in other words, are you looking for 
efficiencies and suggestions because any improvements you can 
make you are helping yourself.
    Dr. Lee-Glauser. So it differs significantly by the agency 
to agencies. So if you are--if some of our faculty are 
targeting defense agency ONR, OSR, or ARO, the importance of 
having a relationship with the program director is that 
important. And I think it is very aligned with almost like a 
proposal type of action. Many of our programs are done with 
white papers----
    Dr. Lee-Glauser. --which is one to five pages and you have 
a go, no-go. Once you have ``go,'' success rate is very high. 
So the faculty members who are doing more defense-related 
projects, their success rate is much higher typically than 
faculty members who are seeking funding from the National 
Science Foundation, as well as the National Institutes of 
Health.
    Mr. Collins. So you do--I mean it would make sense to try 
to help your investigators do better. The better their hit 
rate, the less--and, you know----
    Dr. Lee-Glauser. Exactly.
    Mr. Collins. It is common sense but----
    Dr. Lee-Glauser. We would like to have our----
    Mr. Collins. Help yourself again, yeah.
    Dr. Lee-Glauser. Yes. We would like to have our faculty 
writing one proposal and getting that one funded----
    Mr. Collins. Yeah.
    Dr. Lee-Glauser. --if it is at all possible. Yes.
    Mr. Collins. I think we all would.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bucshon. Thank you. We are going to switch out here 
again real quickly.
    Chairman Broun. We are having a little discussion here 
about doing a second round. We have a lot of questions. I know 
other Members do. I have also. We also have votes on the Floor, 
and we have conflicting idea about when we are going to have 
votes. I think we are going to go ahead and start a second 
round of questioning if you all don't mind. Also, we are going 
to, when we get through with this, present any other questions 
to you all for the record so we call them QFRs. So, if you all 
don't mind, be anticipating questions from the Members of both 
Subcommittees for further questioning.
    So Ms. Lerner, in the Council of Inspectors General for 
Integrity and Efficiency's response to the Office of Management 
and Budget's Uniform Guidance or Omni-Circular, it states that 
it is important to strike the appropriate balance between 
reducing burden and maintaining proper accountability. Can you 
help illustrate what an appropriate balance looks like? For 
example, what do Inspectors General need to see at a minimum in 
order to be able to ensure accountability and transparency with 
federal grants without impinging upon a researcher's extremely 
valuable time to do their research?
    Ms. Lerner. Thank you. Both my written and my spoken 
testimony mention several tools that are extremely important to 
IGs. We have talked a lot about effort reporting. Another area 
that we haven't spent as much time to focus on that I think 
does and has served to fight back some of the burden on 
researchers, is Single Audits. Single Audits were put in place 
back in the '80s and a Single Audit is a high level audit 
looking at internal controls and financial management within a 
recipient.
    Prior to the creation of the Single Audit, an entity funded 
by multiple federal agencies, all of whom would have a need to 
audit, and they can all go in at the same time. If you receive 
funding from five different agencies, you could have five 
different sets of auditors walking in simultaneously or after 
each other looking at the same things. So what the Single Audit 
did was say we are going to do this once, you know, at this 
very high level and spare some burden there. And so maintaining 
the integrity of the Single Audit process is very important to 
IGs and to institutions and other folks who rely on the 
information there, so maintaining a robust Single Audit 
process, having strong cost principles that clearly delineate 
what are allowable costs so that there is some clarity both for 
auditors and for folks who are incurring cost. All of those are 
important things to IGs.
    Chairman Broun. Very good. Thank you, Ms. Lerner.
    Dr. Bienenstock, the Board has suggested that agencies and 
institutions consider requiring receipts and justifications 
only for larger purchases. Conversely, the NSF OIG makes a 
compelling case requiring investigators to obtain and retain 
receipts for all purchases. Can you please elaborate on your 
justifications for the Board's suggestion, including at what 
amount you would require receipts?
    Dr. Bienenstock. As I understand it, federal regulations 
allow one to not submit a receipt for expenditures under $75. 
And yet many institutions are required--and federal regulations 
allow, for instance, a researcher who is traveling to use a per 
diem reimbursement rather than providing receipts for each 
little meal and things of that sort. Yet many States require 
receipts for every little transaction and don't allow the use 
of the per diem rules that so eases things with the federal 
government. So we were looking primarily at the States there 
that don't allow per diem. That is my memory in that 
recommendation.
    Chairman Broun. Okay. What level, though, of receipts would 
you require? Just a number----
    Dr. Bienenstock. I think the $75 is----
    Chairman Broun. Is appropriate?
    Dr. Bienenstock. Yes.
    Chairman Broun. Okay. Ms. Lerner, can you please provide us 
with the IG community's perspective on this issue?
    Ms. Lerner. I think I was fairly clear in my written 
testimony speaking for myself and I think probably reflecting 
the views of my community, we rely on receipts and just because 
an expense is small doesn't mean that there can't be many small 
fraudulent expenses.
    Chairman Broun. Um-hum.
    Ms. Lerner. So ensuring that if a threshold was set at 
higher than 75 percent, we would have some challenges. As I 
noted in my written remarks, we had one very creative person 
who made 3,800 small purchases that added up to over $300,000 
of fraudulent purchases. So, we do need to have receipts to 
help us make cases like that.
    Chairman Broun. That is a lot of pizza and hamburgers.
    Ms. Lerner. It was. And she really liked to tailgate for a 
university other than the university that she worked at. That 
did not go over well.
    Chairman Broun. Very good. My time is expired.
    Mr. Maffei, you are recognized for five minutes.
    Mr. Maffei. Thank you very much, Mr. Chairman.
    Dr. Sedwick, I was struck by the fact that both the 2005 
and 2012 FDP faculty workload surveys found that principal 
investigators reported in both surveys spending an average of 
less than 60 percent of their time on active research, so the 
scientists spending less than 60 percent of their time on 
science. Can you comment on what policies if any--because I 
know you said there were things put in place to try to reduce 
the workload but then there were things that added to it--was 
it mostly the Recovery Act--of why we didn't get improvements 
in the administrative workload between those two times?
    Ms. Sedwick. The results were quite often in the human--the 
research compliance areas for those researchers that utilized 
animals or those researchers that used human subjects--
participants. Those were very high burdens for them. And so 
that is what we looked at is not only was it prevalent across 
all researchers but what were the big pressure points for 
researchers in general. And so if you had human subject 
participants or if you had animal use and care to deal with, 
those were very high, and a lot of that is regulatory-driven. 
And then just the financial management, the effort reporting 
remains to be high across all sectors, because that touches all 
faculty.
    Mr. Maffei. Thanks. I think that is very helpful.
    Somebody made the comparison between applying for the 
research grants and, you know, getting through that 
administrative burden and sort of teaching to the test. And 
that part of the challenge is that researchers are designing 
their applications more to sort of teach to the way that is 
done. And I don't know, Ms. Lerner, whether you were able to 
comment on that at all but I am curious as to whether you think 
that is true and how can that be reduced?
    Ms. Lerner. I think the expression was that they were 
trying to teach to the audit with the idea of avoiding any 
possibility of a negative audit finding. And I know we are 
scary people and I say that in jest, but I recognize that an 
audit to question costs and tries to take money back from an 
institution is a frightening thing to have to deal with. What I 
would say is, really it is not the audit. We audit to criteria 
and the criteria come out of first, previously, the OMB 
circulars and now the Uniform Guidance. And so if we can have a 
better understanding and set policies and procedures that are 
harmonized with the criteria that the federal government has, 
then there shouldn't be a problem with the audit down the road.
    And I think what I have heard some of my colleagues here 
referring to is that sometimes standards are raised beyond what 
the federal standards require in an excess of caution. And if 
that can be avoided, that might be an area of improvement.
    Mr. Maffei. Dr. Sedwick, you seem to----
    Ms. Sedwick. Well, I am the one that said we administer to 
the audit, and by that I mean--keep in mind that the Inspectors 
General for the federal agencies are not the only auditors that 
are auditing us.
    Ms. Sedwick. Ms. Lerner has alluded to our A-133 Single 
Audits and those are conducted by our state--run by our state 
audit offices for those of us that are state institutions. And 
so it is not just Inspectors General that we are, you know, 
concerned about.
    I will give you an example. In the Uniform Guidance there 
is much more burdensome subrecipient monitoring requirements, 
and we already feel that at our institution and I think some of 
my colleagues who we have--how you make subawards to feel like 
that we are pretty risk-averse. Well, our state auditors have 
already told us they want to talk to us about, you know, 
increasing what we do at our state institutions, and that is 
really concerning for me and I think that that is what we are 
all thinking is coming out of the Uniform Guidance is we don't 
know where not just the Inspectors General but our state 
auditors are going to take it
    Mr. Maffei. That is really helpful.
    I am curious, and Dr. Lee-Glauser, I will ask if you have a 
thought on this, but I am curious as to whether you think that 
these requirements put any bias in terms of the kinds of 
universities, the sort of home universities or colleges that--
for instance, you mentioned state. Are state institutions 
having to deal with more of this and therefore biased against? 
Do the sort of the huge traditional names, are they helped? Or 
the smaller colleges, if you are from there, they don't have 
the resources to support scientists as much. Do you detect any 
of that?
    Dr. Lee-Glauser. I think we--Syracuse University is a 
private institution. We are not a state institution but we have 
the same burden.
    Mr. Maffei. Right.
    Dr. Lee-Glauser. We receive funding from the State as well 
as the federal and different agencies, so we have the same 
burden.
    Mr. Maffei. I know my time is up but, Ms. Lerner, do you 
ever detect any sort of--are you concerned at all about 
different--you know, the nature of the institution?
    Ms. Lerner. You know, over the years the IG community has 
found problems at--you know, at every size institution that you 
can imagine from the biggest names to the smallest. So there is 
no guarantee that size prevents problems. What I would say is 
in larger research institutions like the University of Texas, 
my alma mater and a lovely place, you do have places--people 
like Dr. Sedwick who are able to provide support and ensure an 
environment where you are more likely to have controls. That 
may be difficult to replicate at smaller institutions and 
certainly when you have small businesses that are receiving 
funding.
    Mr. Maffei. Thank you. I thank the Chairman for his 
obliging me. I think this is all very, very valuable.
    Chairman Broun. Certainly. Gladly. No problem. You know I 
have always tried to give lots of leeway.
    Dr. Bucshon, you are recognized for five minutes.
    Mr. Bucshon. Yes. Thank you, Mr. Chairman. I am going to go 
a little different direction. I think Mr.--Dr. Bienenstock, 
excuse me, mentioned an intriguing thought that sometimes 
misconduct allegations are done because there is an academic 
argument for competitive purposes and we all know that the 
academic environment is really hypercompetitive. I want to see 
what people's insight is what happens when those things happen 
within your own university--this may go to the university 
folks. What are the repercussions of that when that is found to 
be the case where it is not--it is an academic argument in the 
competitive environment people have made accusations.
    And then, Ms. Lerner, maybe you can address what 
implications that may have on the future ability of the person 
making the accusation that is found to be false on their 
further ability to ever get federal funding again? Because in 
my mind if they do that, I would not want to give them another 
taxpayer dollar ever. Or--we have discussed this at the 
Committee--or have a time frame where you would maybe--you 
know, there would be some forgiveness there.
    Do you want to follow up on that, Dr. Bienenstock? I mean 
how significant do we think that a lot of this stuff we are 
spending time on within the university is actually related to 
academic competition and not related to actual fraudulent 
behavior by researchers?
    Dr. Bienenstock. Let me say that approximately half of the 
cases that I had to deal with as Vice Provost were of that 
nature. Okay.
    On the other hand, I have to say that it was pretty subtle. 
That is you know the processes. First, you determine is the 
allegation one that should be dealt with under the definition 
of falsification, fabrication, or plagiarism? Then you do an 
inquiry. And in both of those cases the inquiry said we better 
do an investigation. So it is subtle. And then in the end when 
we got the senior faculty together to really look at it 
carefully, it was decided there isn't research misconduct here. 
It really is an argument that should be settled in the 
literature.
    Now----
    Mr. Bucshon. So is there a reporting requirement? Say an 
institution finds that within their own institutional 
investigation. Is there a requirement to inform the federal 
government of who made the allegation in the first place and 
what the outcome was?
    Dr. Bienenstock. No. I believe in circumstances like this 
we don't report. And remember, the person who made the 
allegation had a real reason for doing it and we wouldn't----
    Mr. Bucshon. Well, maybe they didn't.
    Dr. Bienenstock. --go beyond the inquiry stage if we didn't 
think there was enough justification to go into the 
investigation. So it is not as if you really want to stop these 
things because in some cases there is real misconduct, and you 
are supposed by the rules to keep these things confidential 
unless there is a real finding of research misconduct.
    Mr. Bucshon. Okay. Ms. Lerner, you have a comment on that?
    Ms. Lerner. I would just say if NSF funding is involved, we 
are supposed to be informed even at the inquiry stage because 
the initial inquiry and investigation is conducted by the 
institution, and if there is a determination that no 
investigation is warranted, we are informed of that. What the 
institution is doing is looking at the interest of the 
institution and we look at research misconduct and allegations 
from the perspective of the funding agency. And sometimes we 
will look at the inquiry and/or investigation and decide that 
additional work is necessary and we do go on and do that. It is 
not often. Usually, we can rely on the determinations that are 
made by the institutions. But in instances--and we have had 
some prominent ones where we don't think that sufficient work 
has been done, we go in and do more and then we make 
recommendations to the director intended to protect the federal 
funds.
    Mr. Bucshon. I want to give both the doctors from the 
universities--there was some surprise about your initial part 
of your statement. So, Dr. Lee-Glauser, first can you comment 
on that?
    Dr. Lee-Glauser. Yes.
    Mr. Bucshon. And then with your indulgence, Mr. Chairman, 
Dr. Sedwick.
    Dr. Lee-Glauser. So it is my understanding that during the 
inquiry stage within the institution we do not have to report 
to NSF. When it goes into the investigation--so we are very 
careful----
    Ms. Sedwick. Yeah, that is----
    Dr. Lee-Glauser. --as to how we are awarding what we are 
doing.
    Ms. Sedwick. I agree.
    Dr. Lee-Glauser. Yes.
    Ms. Sedwick. That is--we are required to report at the--
when we start the investigation stage and then the results of 
our investigation.
    Ms. Lerner. And----
    Mr. Bucshon. Your mike is not on, Dr.--Ms. Lerner.
    Ms. Lerner. What is that?
    Mr. Bucshon. Your mike is not on.
    Ms. Lerner. But sometimes allegations come to us and we 
send them to the institution for inquiry, so that is what I am 
speaking of. In those situations we are already aware. In other 
instances we are not aware of them until they get to the 
inquiry stage.
    Mr. Bucshon. Okay. Because this issue actually seems very 
important to me because, like I said, there is a discussion on 
when you fraudulently use taxpayer dollars or you accuse 
someone of fraudulently using taxpayer dollars and they 
weren't, what the repercussions of that are.
    And so thank you, Mr. Chairman. I yield back.
    Chairman Broun. Thank you, Dr. Bucshon.
    As a practicing physician, I have seen the burden that is 
placed upon medical practitioners by the federal government and 
it has markedly driven up the cost of the practice of medicine. 
This drives up the cost of insurance, it drives up the cost for 
all of us, society as a whole, because of the heavy burden of 
the federal government that comes from Centers for Medicare and 
Medicaid Services. So this regulatory burden on all scientists, 
whether it is a researcher in a university or whether it is a 
private researcher or whether it is even medical providers that 
are working. The cost in time, energy, which of course are 
extremely valuable, as well as the financial cost are huge. And 
I appreciate you all being here today to help elucidate some of 
the issues that you all face.
    By the way, for those of you all that are not from the 
South, you all is singular for all you all, which is the plural 
for us, or you all could be plural itself so it is singular and 
plural. So, but greatly appreciate you all being here today. 
And, it is great testimony from each of you. I appreciate--
certainly all of you all have made some personal sacrifice in 
your valuable time to come here and give us your testimony, and 
personally, I greatly appreciate it.
    And then others have even made some other types of 
sacrifices, driving a long way from Syracuse, New York, down 
here, and then, Ms. Lerner, I am sorry for your father's health 
problems and I greatly appreciate your personal sacrifice to 
come. I know that there was some question whether you could 
attend or not because of that and I will keep you and your 
family and your dad in my prayers.
    But all of the Committee Members may have--or some of us 
may have further questions for each of you all, and I would 
appreciate a very rapid response to that. Members are reminded 
that the record will remain open for two weeks for additional 
comments or for those written questions from Members, and then 
if you all would please get your responses back as 
expeditiously as possible so that we can go ahead and close 
this record.
    And if you have any suggestions of how we can get this 
burden off of our scientific community so that we can do 
science instead of fulfill the regulatory burden that the 
federal government has placed upon you all, and also give Ms. 
Lerner and her compatriots in IG offices across this country 
the resources that they need to do their job. We all have to be 
held responsible and accountable and so that is what Ms. Lerner 
and her office is all about. So, if you all could let us know. 
Ms. Lerner, if you could help us, too, I would appreciate that.
    So I thank all of you all for your valuable testimony. I 
thank Members for your great questions and this hearing is now 
adjourned.
    [Whereupon, at 10:41 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
                   
Responses by Dr. Arthur Bienenstock

[GRAPHIC] [TIFF OMITTED] 

Responses by Dr. Susan Wyatt Sedwick
[GRAPHIC] [TIFF OMITTED] T9408.062


Responses by Dr. Gina Lee-Glauser
[GRAPHIC] [TIFF OMITTED] T9408.075



Responses by The Honorable Allison Lerner
[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
